                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

11    Case Number: I05010001
                                                                                    11          Page 1 of 1



              In January, 2005, OIG received an anonymous complaint indicating that two professors' at a
              large ~niversitghad used their positions as members of an NSF funded Research center3 to        .
              pressure other researchers to purchase equipment fiom their jointly owned company4.

              The initial complaint included several e-mails identifying an individud who allegedly had been
              pressured to purchase equipment fiom the subjects' private company. This individual was
              interviewed and denied being pressured by the subjects. During the interview he stated that
              initially he felt a little uncomfortable with some of the comments fiom the subjects concerning
              not purchasing fiom their company but subsequent meetings with the subjects have been fiiendly
              and professional and nothing further has been said6.

              We also contacted the University and requested general information relating to their Conflict of
              Interest(CO1) policies and specific information relating to the subjects' specific declared
              potential conflicts. We received the University's response and our review found that the policies
              are adequate and appear to be followed in this matter.

               Accordingly, this case is closed.




11'
     NSF OIG Form 2 (1 1/02)
